. ,





                          WORKING TOWARD JOBS

                                The Delaware

                              First Step Program





               tlWICES'




       '0


            ;tlt"d3a


       OFFICE OF INSPECTOR GENERAL
       OFFICE OF EVALUATION AND INSPECTIONS

                                                    MAY 1990
OFFICE OF INSPECTOR GENERAL


    The mission of the Offce of Inspector General (DIG) is to promote the efficiency,
    effectiveness, and integrty of programs in the United States Depanment of
    Health and Human Services (HS). It does this by developing methods to detect
    and prevent fraud, waste, and abuse. Crated by statute in 1976, the Inspector
    General keeps both the Secta      and the Congress fully and currently infonned
    about progrs or management problems and reommends corrective action.
    The DIG perfonn its mission by conducting audits, investigations, and
    inspections with approximately 1,400 sta strategically located around the
    countr.

OFFICE OF EVALUATION AND INSPECTIONS


    This report is produced by the Offce of Evaluation and Inspections (DEI), one of
    three major offces within the DIG. The other two ar the Offce of Audit
    Services and the Offce of Investigations. Inspections ar conducted in
    accordance with professional standards developed by DEI. These inspections are
    typicaly short-tenn studies designed to detennne program effeCtiveness,
    efficiency, and vulnerabilty to fraud or abuse.

    This technical report was prepared to describe the operation of the Delaware First
    Step program. This technical report is pan of a larger study which was conducted
    to describe the operation of a sample of matue, well-regarded and comprehensive
    work programs for AFC recipients and the insights of the admiistrators of
    those programs.

    This report was prepard under the diction of Emilie Baebel , Chief, Public
    Health and Human Services Brach. This project was lead by Suzanne Murn of
    that branch.
                    The Delaware

                  First Step Program





                   Richard P. Kusserow
                    INSPECTOR GENERAL




OEI-12-89-01322                          MAY 1990

                                                                            .. ... ... ... ... ... ... ... ... ... ... ... ... ... ... .... .... .... .... ..... ....................... .... .
                                . . . . . . . . . . . .. .. ... ... ... ... .
                                     ..................................                                                                                                                       ... .
                                                                                                                                                                                                  .. .
                                                                                                                                                                                                     .. .. ..




INTRODUCTION


PROGRAM PROFILE.
                                                                                                                                                                      . . . . . . . . . . . 2

           THE STATE OF DELAWARE                                                                                                                                                                         . 2

           THE DELAWARE AFDC PROGRAM                                                                  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

           THE DELAWARE AFDC WORK PROGRAM                                                                                  . . . . . . . . . . . . . . . . . . . . . . . 2


                   General, Background. . 

                   Administrative Issues                                                                                                                                                                 . 3



                   Participation Issues. .                                                                                                                                                               . 4

                   Program Activities                                                                                                                                                            . . . 5


Appendix A
          OVERVIEW STATEMENT.                                                                                                                                                                     A-

Appendix B

     SAMPLE DOCUMENTS                                                                                                                                                                            . B­
                   "',    ...          ..,                   .""""




           This technical report is pan of a series of
           profies on the Aid to Famlies with Dependent
           Childrn (AFC) work progrs panicipating
           in the Working Toward JOBS 
    project.

           Each profie begins with a categorize
           descrption of the subject AFC work program,
           which is. based on mail guides submitted by the
           progr      Appendix A includes an overview
           statement wrtten by the program manager. It
           descrbes the program, its goals, philosophy and
           lessons leared.   Appendix B is a sample of
           documents used to conduct the program. Each
           program admnistrtor was asked to submit
           sample documents which they felt would be
           useful to States and counties developing JOBS
           progrs.
           Data collection for this study was done from
           Apri to September of 1989. The infonnation in
           the overview and technical reports is based on
           pre-JOBS work programs for AFC recipients.
           As these progrs have converted to JOBS,
           they may have made some changes to meet
           JOBS legal and regulatory requirments.
           Where possible, we have noted the changes the
           program admnistrators anticipated at the time
           of our data collection.




Delaware                                     INTRODUCTION
THE STATE OF DELAWARE

               Population: 649,

               Major industres: services, manufacturng, retal      trade

               Firt quaner 1989    unemployment rate: 3. 6 percent

               1986 average annual income for a famly of four: $35,766
               Percent of the populaiton living below the povery line: 11.3

THE DELAWARE AFDC PROGRAM

              -For Fiscal Year (F) 1988:

               Total cost: $24 210, 072

              Federa shar: $12,463, 008; State share: $11    747, 064

              Average monthly caseload: 7, 434

              Client descriptors:

                 Average number of children in    grt:
                                                    1.8

                 Average length of spell on AFC: 30 months

              Case closures: 6, 095


THE DELAWARE AFDC WORK PROGRAM


General Background

Name:          First Step

Operating Since: 
     April 1, 1986. Delaware has been operating a Work Incentive
              Demonstrtion project since 1982.

Philosophy:          The underlying philosophy of First Step is "People have the potential for
              self suffciency, and given the appropriate resources can succee in reaching that
              goal. " The mission of the Deparent of Social Services (DSS) is to provide an
              integrted system of opportunities, services and income supports that enables
              recipients to develop self suffciency and achieve and maintain independence.

              Employment and training services are offered though the Division s First Step
              program. The ultimate goal of the program is two- fold:




Delaware                                         PROGRAM PROFILE
                              The placement of individuals in public or private sector employment
                              that enables them to become self suffcient.

                             The interrption of the intergenerational public assistance dependency
                             cycle working through parents to promote education and skill training
                             for their children , rather than the continuation of public assistance.


   Program Administrator:
                   Rebecca R. Varlla

                  Chief Employment and Training Administrator
                  Division of Social Services
                  P.O. Box 906

                  New Castle, DE 19720

                  (302) 421- 6776



  Administrative Issues

  Structure:          The DSS admisters the program s three local offces throughout the State.

  Funding:           In FY 1988:
                                                 Federal                 State               TOTAL
                  Program Costs                 $314 618               $676 732             $991 350
                  Supportive Services             124 223               184 226              308,449
                 TOTAL                           438, 841               860 958              299 799
 Staff:          There are six case managers who perfonn assessments, counseling and referral
                  services , and offer support services and case management. There are two
                  supervisors who oversee the case managers , compile reports, relay administrative
                 instrctions and coordiate al First Step activities.

Success Measurements: 
           Delaware measures First Step s success by tracking the number
                 of clients who: parcipate in First Step; panicipate in Job Training Pannership
                 Act (JTPA) programs and other educational and training programs; become
                 employed; leave welfare; receive their General Equivalency Diploma; and/or
                 make grade level improvements.

Recordkeeping:            The DSS is in the process of developing a comprehensive automated
                 monitoring/trackig system which enables
                                                              service providers to directly link with
                 the employment and traiing   system for   referral infonnation , status reporting and
                 expenditure reportng.





Delaware                                          PROGRAM PROFILE
                                -.




 Prov ision of Services:    The DSS contracts with community based agencies to provide
          basic life skills (academic and life management) and self- diected job search
          instrction. As pan of the selection process competitive bids/proposals are
          solicited from community agencies and a committee reviews and rates proposals
          based on established criteria.

 Outside Resources: 
       The DSS works closely with the State Depanments of Education and
               Labor in order to provide education and job placement services to First Step
               parcipants.

Evaluations:         An internal evaluation is being conducted to detennne retention rates for
               parcipants entering employment in 1986 and 1987. This evaluation should be
               completed in April 1990.



Participation Issues



Participant Descriptors: 
         All AFC recipients are registered for First Step. However
               only the WI mandatory parcipants and those who choose to volunteer are
               referred for active parcipation in First Step. There are approximately 1 600
               registrants each year. Seventy-nine percent of parcipants test at third grade or
               below in math skils. Fify- two percent of parcipants test at fifth
                                                                                    grade or below
               in reading. In addition , they are deficient in life management skills.

Target Groups: 
             First Step targets long-tenn welfare recipients (defined as receiving
               AFC for 60 months or more) and the hard to serve. Targeted groups receive
               priority service in the program components and supportive services.

Mandatory Activities/Sanctions: 
       All non-exempt AFC recipients must paricipate in
               appraisal and assigned program components. In FY 1988 the State imposed 160
               sanctions on AFC clients who did not comply with the mandatory activities in
               First Step.



Volunteers:         Eighty- the exempt AFC clients volunteered for First Step in 1988. The
               DSS encourages voluntar panicipation by: distrbuting literature; holding
               recognition ceremonies; encouraging current panicipants to contact potential
               parcipants; having eligibilty workers infonn clients of First Step services and
               the future benefits of panicipation; aing a public relations tape on seven local
               television stations; showing a video tape at community organization meetings;
               encouraging newspaper coverage; and emphasizing First Step in the case
               management project.

Employment Placements: 
             In calendar year 1988 First Step placed 128 panicipants into
               pan-time      employment and 319 parcipants into full- time employment.



Delaware                                              PROGRAM PROFILE
              Seventy- four of those pan-time placements resulted in a case closure , while 191
              of the full-time placements resulted in a case closure. Typical placements were in
              the service, clerical and admnistrative support positions. The average staning
              wage is $4. 52    per hour.




Program Activities

Models:         Each of the progr admnistrtors was asked to describe a model activity or
              service. The First Step program admistrator chose to describe the Brown Bag
              Club.

              Some Firt Step panicipants belong to co-op club, called the Brown Bag Club.
              These clubs help parcipants lear decision-makng skils and budgeting
              techniques. P cipants contrbute $3. 00 per month to their group s "purchasing
              power ban. " Products are generally available by the case and include such items
              as dish detergent, spaghetti, fruit juice, and personal care products. Each Brown
              Bag Club group reviews a list of products available, evaluates their personal
              needs, calculates the cost savings of products, and democratically detennines
              what are the most cost-effective product purchases for the group to make for the
              month. A number of the groups have expanded this activity to include reviewing
              supennarket and bread thrft store circulars to detennne additional purchases of
              items not included in the official Brown Bag Club list. If necessar, they wil
              contrbute a few more dollars to make these purchases.

              Panicipants enjoy being a pan of this activity and consider their experience to be
              extrmely beneficial.

Sequencing:          Figure 1 shows the tyical    sequence of activities for First Step panicipants.

Program Activities Listing: 
         What follows is a listing of the program services of First
              Step. Costs and panicipation figures ar for FY 1988.




Delaware                                           PRORAM PROFILE
                          ;:;:;:
                             :;:;:;:;:
                              . , ",   :::;::::;:
                                             !!!;!       ~~~~                 !.j:j~~~      :;:jjj!~~~~
                                                                                     ::::: ~~~~      ~~::: :::;:;:;:;:;:;:
                                                                                                           ~~~ :!!:                   :;:;: :;:




                                                                                     Figure 1





       AFDC EMPLOYMENT & TRAINING





                               Iii!!!!!I!!!!!jj
                                                   !i;
                                                            ;l;!:!.:!::m::j
                                                                                         j!i
                                                                                                                      r!.::rj: :::::!:l::!!:!!:
                                       JR, vv,                                 :ij
                                                                              KJE, B.lCUUEN!1L",
                                                                                       j;f:
                                                  :::r:::                                                             :;:;:;:;:;:ff




              DayCare
              Worker!

                 Client




      E & T      Contract                     JTP A Training                                                        Other Education

                                                                                                                              or Training

                                                                                                                                                  CWEP



                                               705 Jo Enry




Delaware                                                                            PRORAM PROFILE
    Assessment
   Activity:         Within a reasonable time period prior to parcipation the DSS case manager
                   must make an initial assessment of employabilty based on: (1) the parcipant
                   educational , child care and other supportve services needs; (2) the panicipant
                   proficiencies, skills deficiencies and prior work experience; (3) a review of famy
                   cirumstances, which may include the nees of any child of the parcipant;      and
                   (4) other factors that DSS determnes are relevant in developing the employabilty
                   plan.

   How Provided:           Individual meetings between case managers and panicipants.
                                                                                           Provided
                   by DSS and community based agency contrctors.

  Participants:          Approximately 1 500; al First Step   parcipants receive assessment.




  Employabilty Planning


 Activity:          Consists of instrction in self-assessment, self- image   improvement, decision
                  makng, networking, peer counseling, communication skills, affective
                  development and appropriate work place behavior. These skills wil enable the
                  client to make more realstic decisions in the employabilty planning process.

                  Employabilty planning also includes evaluation of the panicipants intrsic
                  abilties, cognitive functioning, motivation and vocational interests.

                  The employabilty plan must: conta an employment goal for the parcipant;
                  describe the services to be provided by DSS, includig child car and other
                  supportve services; describe the Firt Step activities that wil be undertaken by
                  the panicipant to achieve the employment goal; describe any other nees of the
                  famly that might be met by Firt Step; and emphasize placement in a component
                  which wil assur the panicipant s success. The employability plan shall take into
                  account: avaiable progr resources; parcipant s supportive services needs;
                  parcipant s skill levels and aptitudes; local employment opportnities; and, to
                  the maximum extent possible, the preferences of the panicipant.

How Provided: 
           Provided by DSS staff in one-on-one meetings.

Participants:           Appropriate for all parcipants.




Delaware                                           PRORAM PROFILE
 Supportive Services
 Activity:            Transportation , child care, supplementa non-medical benefits (i. e., hard hats,
                    goggles or other supplies required for training or work under safety regulations),
                    remedial medical (optical and dental services).

 How Provided: 
             Need for assistace detennined on an individual basis by case manager.

 Transportation:             The DSS may utiize van service. Clients using public transportation or
                    their own vehicles are generally limited to $65. 00 per month.

 Child Care: 
            The DSS wil arange care through purchase of service contracts, in- home
                    care, or car provided by a caretaker relative, or child care center.

 Supplemental non-medical: 
             Done on a one time only basis. Generally limited to $100.

Remedial medical: 
           The DSS wil provide up to $100 on a one- time-only basis for an eye
                   examnation and glasses. The DSS can waive the $100 limit if a panicipant has a
                   vision problem and the necessar correction costs more than $100. Authorization
                   for a dental exam can be granted by a First Step supervisor. All remedial medical
                   payments are issued diectly to the vendor.

Participants:             On average 132 panicipants receive child care services each month.

Cost:              Trasportation costs were $43, 539  and child care costs were $264, 910.     Cost
                   figures on the other services are not avaiable.




Self Directed Job Search Training

Activity:            Designed to equip the client with life- long job hunting skills. These skils
                   include resume constrction , resume updating, career planning, and appropriate
                   work behavior. Self- directed   job search develops intrnsic   abilties for individuals
                   to avoid relying on outside support during job trsitions,     thus preventing the
                   possibility of recycling into the public assistance system.

How Provided: 
             Provided in a classroom setting through contracts with community based
                   agencies.

Participants:             435; appropriate for panicipants who lack job seeking skills.

Costs: $588, 626




Delaware                                              PROGRAM PROFIE
 Post Secondary Education
Activity:         Upon reaching a mutually agreed upon carer goal that involves post-secondar
                education , DSS wil fully substantiate the client s skil level. These predictive
                success qualifications, along with support services, wil enable the client to
                pursue and qualify for outside fmancial aid.

How Provided: 
           The DSS wil offer management and support services in conjunction
                with financial and educational services provided by the post-secondar education
                institution and outside sources.

Participants:          Appropriate for those whose employment goal requires post secondar
                eduction.




Vocational Skils Training

Activity:         Training designed to prepare a parcipant for a specific vocation.

How Provided: 
          The training is generally provided by ITA contractors. The DSS will
                provide case managed referrals and monitor clients progress while in training.

Participants:          Appropriate for those who lack specific vocational skills.




Community Work Experience

Activity:         A work experience in a public non-profit organization which enables a
                parcipant to explore their interests and abilties.

How Provided: 
          Arranged by DSS in one-on-one meetings with clients. Employment is
                in public non- profit agencies.

Participants:          5; appropriate for those needing a work experience setting to enhance their
                job skils.




Delaware                                          PROGRAM PROFILE
     On-the-Job Training

    Activity:         Provides clients with specific job skils training in a work place setting. Length
                    of time that a client may remain in on- the-job trining (OIT) is detennined by the
                    contractor and the employer. An OIT panicipant wil receive the same
                    compensation as a provider s regular employees.

    How Provided: 
          Provided by DSS though an interagency agreement under which the
                    Delaware Depanment of Labor refers clients dictlyto OJT providers who may
                    be funded by ITPA.

   Participants:           Recommended for job ready individuals.




   Job Development/Placement

  Activity:           Contracted job developers work with prospective employers to create or modify
                    a position to meet a panicipant s skils. Job developers also refer clients to job
                    openings appropriate for their work skills.

  How Provided: 
          Delaware s Depanment of Labor JTA programs provide this service
                   though their contractors.

  Participants:           Recommended for panicipants who are job ready.




 English As A Second Language

 Activity:           Training in the English language for literate and non- literate Spanish speaking
                   parcipants.

How Provided: 
             One community based organization works to help clients gain
                   proficiency in both languages , while parcipating in work related trning.
                   Another community based organization offers a submersion approach to English
                   speakng. English as a second language (ESL) training is provided by DSS
                   contracted services through community based educational and social services
                   organizations. The ITPA funded providers offer ESL to panicipants with
                   relatively high literacy functioning.

Participants:            Recommended for those with low English proficiency.


Delaware                                            PROGRAM PROFILE
Basic Life Skils Enrichment

Activity:         The priar purose of this activity is to provide individualized academic
                instrction to individuals with academic and life management skills deficits.
                These deficits pose a significant barer to employment and/or prevent access to
                other training programs due to the panicipant s inabilty to meet minimum
                entrance standards.

How Provided: 
          Provided in classroom settings through contracts with community based
                organizations. Instrction is based on the individualized and smal group
                approach.

Participants:           Recommended for panicipants with academic and life management skils
                deficits which pose a significant barer to employment or education. These
                deficiencies include: iliteracy, mental health , specific learing disabilities, social
                and emotional developmenta lag, lack of motivation or work ethic , personal time
                management and chemical dependency.



Self-Initiated Education Or Training

Activity:          Post-secondar or vocational training which was begun by the panicipant
                outside of First Step. Such programs must be at least half- time , and the
                parcipant must be making satisfactory progress. The panicipant must undergo
                First Step assessment and employabilty planning. Self- initiated education or
                training is funded by outside sources, but First Step wil provide supportve
                services as appropriate.

How Provided: 
          Outside agencies wil provide classroom training. The DSS staff wil
                arange for supportive services.



High School Diploma/General Equivalency Diploma

Activity:          This component involves panicipation in general equivalency diploma classes
                in conjunction with skills training.

How Provided:            These services are provided by DSS contrctors.      Additionally, through
                fonnal agrements, JTPA, and the Depanment of Public Instrction s Adult Basic
                Education program provide services.

Participants:          Recommended for any client in need of high school certfication.




Delaware                                           PROGRAM PROFILE
 Case Management

 Activity:        Applying a competency based approach , benefit assistance eligibility staff
                identiy client s strengths, chalenge self doubts and , workig with the client
                establish action steps leading toward self-sufficiency. Utilzing the competency
                based approach enables staff to instil a sense of empowerment in the parcipant.
                At this point , the client is referred to First Step.

                First Step employment and training case managers combine the competency
                based philosophy with a holistic approach in their efforts to foster employability
                development as a means to achieve self-sufficiency.

How Provided: 
          Provided by DSS staff in one-on-one and group meetings.

Participants:         All parcipants receive case   management.




Delaware                                         PROGRAM PROFILE
                                                                             Appendix A





DELAWARE' S FIRST STEP

           Delawar has operate a WI Demo Progr           since April 1 , 1982. Though a
           contrct with the  Deparent of Labor, employment and trning services were
           provided to "job ready " AFC recipients. In the fal of 1985, the Deparent of
           Health and Social Services, Division of Economic Services (renamed Division of
           Social Services effective 2/16/89) contracte with James Bell Associates to study
           welfare dependency in Delawar. The                   Gaining Ground
                                                    study entitled

           documented that approximately 29 percent of Delaware s welfare recipients are
           long-term dependent. These recipients spend an average of9 years on welfar
           and ar charcterize as persons with two childrn, who have never worked or
           worked very little, have never been mared, have less than 9 years of schooling,
           have severe basic skils deficiencies and began to receive assistace as teenagers.
           Included in the study was the recommendation to design an employabilty
           development program to meet the needs of the long-tenn, hard to serve recipient.

           In Apri of 1989, as    a result of the Bell study, the WI Demo progr was
           restrcturd. After tennnating        the contract with the Deparent of Labor, the
           program design reflecte an approach to providing employment and trning
           services for reipients which centered around the holistic concept of dealng with
           the whole person. This encompasses improving basic skills perfonnance and life
           management skills, without which there is a negative impact on the client
           abilty to attan self suffciency. The new employment and trning initiative was
           titled First Step (the hardest step to tae) and includes such services as:

                     Pr-assessment

                     Community AcademiclLife Skils Development

                     Basic AcademiclLife Skils Development

                     Self-Directed Job Search Training

                     Vocational Training Referral

                     Other Education Referral



Delaware                                  OVERVIEW STATEMENT                            A.1
           Basic AcademiclLife Skils and Self-Dircted Job Search Training services are
           provided though contracts with community based agencies. Support services are
           provided and include child care, trsportation and remedial medical for denta
           and eye care servces.

           The ultiate goal of the First Step Progr is two- fold:

                     The placement of individuals in public or private sector employment
                     that enables them to achieve self-suffciency.

                     The interrption of the inter- generational public assistance dependency
                     cycle working though parnts to promote education and skill training
                     for their children , rather than continuation of public assistance.


       Because of Delawar s strong economic development in the 1980' s, our
       unemployment rate is approximately half of the national rate. Most people are
       under the assumption that welfar                     to stay on welfar, since job
                                                      recipients   prefer

       opportnities are abundant and the recipient is still reeiving benefits.
       Counter-acting this assumption was extremely chalenging. The Division of
       Social Services contracted with Susan Gray, M. Ed, Beehwoo Consultants to
       conduct a pilot diagnostic testing program. The results indicated that more than
       60 percent of the clients tested ar perfonning below a 5th grade level. The
       Deparent of Labor                        report included the following as future
                                   Workforce 2000 


       labor market trends which curently ar evident in Delawar:

                    Majority of new jobs wil             be created in      the servce industres and wil
                    demand high skills.

                    Those who cannot read, follow diections                   and use mathematics wil
                    have fewer employment opportunities.

                    The most educationally advantaged will benefit signifcantly,                since
                    many of the new jobs wil require post seconda education.



       With the support of Governor Michael N. Castle, the Division of Social Services
       accepted the chalenge of intensively working with our population. Coupled with
       this challenge was the task of influencing the rethinng of traditional
       assumptions related to the welfar population.




Delaware                                        OVERVEW STATEMENT                                       A.2
    , We have leared that through the continuum of services model involving a
     strctured approach with infonned     client choices on an individual basis being the
     foundation , we are able to significantly enhance a client s abilty to move off and
     remain off welfare.

     States need to be well aware of the impact of the generally accepted assumptions
     related to the welfare population on their agency s abilty to design quality
     programs that are geard toward individual client needs.




                                        OVERVIEW STATEMENT                              A-3
Delaware
                              Appendix B





Delaware   SAMPLE DOCUMENTS
         -----------------------
        -------------------                                               , '




NAME
SSN ,
                                      D:rSIa. OF      BDC SECE
                                       :I 
 SE        Ja
                                                                                Dates Coer:



  EMLOYER                 CDACT PERS                          ACTIVITY (DATE)
J\DRES /TELPH               AN TITL         Phone      Letter Visit Apli- Resun Intexiew
                                             r-..1'
   Emloyer # 1





   Emloyer # 




   Emloyer #





   Emloyer #





   Emloyer #





   Emloyer # 

                                                                                                                                .. .
                                       l I



                                                                                                                               I '




                                                                                     E. St, Servce Center
                                                 Porter, St. Servce Center
                                                 509 W. 8th St.	                   624 Jessup St.

You wil meet with the First
                      
       Step staff who
                                                 Wilmington 19801	
                                                 571- 340	
                                                                                   Wilmington 19802

                                                                                   571-3101
                                                                                                                       FIRST
                                         refer
wil help determine your needs and                DeLaWarr St. Service Center	       16th & Thatcher Sts.
you to the program which best meets your                                           Wilmington 19802

                                                 500 Rogers Rd.

needs.                                           New Castle 19720
                                                 571- 3813
                                                                                    571-3170
                                                                                                                       STEP
                                                                                    1715 W. 4th St.

                                                                                    Wilmington 19805

                                                 Hudson St. Service Center
                                                 50 I Ogletown Rd.                  571-360
                                                 Newark 19711

Those who have completed the First Step           368-6770
program are working as Account Clerks,
Clerk Typists, Mail Sorters, and Machine
                                                                                    Suite L- IOI
Operators. They are on their way to in­           Wiliams St. Service Center	
                                                  805 River Road                    32 loockerman St.
dependence from welfare.                          Dover 1990 	                      Dover 1990
                                                  736-3351                           736-5633


Only people who get AFDC or Food
 Stamps.                                          Laurel St. Service Center	        Georgetown St. Service Center
                                                   III Mechanics St,	               546 S. Bedford St.

                                                  Laurel 19956
                      Georgetown ' 9947

                                                  856-5223	                          856- 5450

                                                   pyle St. Service Center	          Bridgeville St. Service Center

 Call your Social Worker to learn more             Rd. 2
                            N, Cannon & Mill Sts.

 about First Step and how to enroll. Soon          Frankford 19945                   Bridgevile 19933

                                                   732-9501	                         856- 5350
 you can get help to be independent. to be
 successful.




                                                                                DELAWARE HEAL TH
                                                                                AND SOCIAL SERVICES
                                                                                Division of Social Services
                                                                                                        , .





                                                                                                                                     help you
                                                                              deal with            Group Job Search - First Step wil
                                   many          Supportive Services help you                     learn how to apply, how to interview and
 The First Step Program offers you              some of the problems that keep you from           how to keep a job.
employment and training choices to help         going to education and training programs.
you obtain the skils you need to get and                                                           Community Work Exrience­

                                                                                                                                  Wil enable
                    First Step staff wil work       We offer:
keep a job. The                                                                                   you to work in a public agency to get work
                                is true that
with you to reach your goal. It                    . Day Care - We can help with the cost         experience and improve your skils.
taking the first step is the hardest but once        of care for your children while you go
you do, you wil be on your way to get­              to school and, maybe, after you have
ting off welfare.                                    found a job.
                                                   . Transportation - We cover the cost of
                                                     transportation to and from education
                                                     and training programs.
                                                   . Eye Care - If you are getting AFDC,
                                                     you get a free eye exam and glasses.


                                                   Improve your reading, math and verbal
                                                 skils which may lead to a GED or high
                                                 school diploma. If you choose to continue
                                                 improving your skils. you can be referred
                                                 to a college   level program.
                                                    Through referral to Job Training Partner-
                                                                                 training pro-

                                                  ship Act pTP AI and other 

                                                  grams you wil learn a skill. Many kinds of           FIRST

                                                  training programs are available including of­
                                                  fice skils, construction trades, and banking.

                                                                                                       STEP

